r
■g

No.

21"5680
ORIGINAL
IN THE

SUPREME COURT OF THE UNITED STATES filed

SEP 0 9 2021
SU PREMEroilR^n^

Heather ELena Matthews

— PETITIONER

(Your Name)
vs.
California State University

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Nevada State Supreme Court
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Heather Matthews
(Your Name)
P.O. Box 1625
(Address)
Carson City, Nevada 89702
(City, State, Zip Code)
none
(Phone Number)

RECEIVED
SEP I h 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

ri

QUESTIONS PRESENTED

1.

2.

3.

4.
5.
6.
7.
8.

Does a large public entity or state university or government agency have the right to claim
sovereign immunity when committing criminal activities after crossing over into state lines
in order to commit those criminal activities? In this case California State University crossed
over into the state of Nevada and paid a bribe to Mill City Press to not publish my book,
"Walking Between the Shadow and the Light" by Heather Matthews. They also paid numerous
businesses, courts, and various people to threaten my safety, harass me, and to stalk me.
Can a large public entity that claims to be an arm of the government take away the first
amendment rights of a citizens' freedoms of speech, press, and religion by claiming that they
have immunity from criminal activity in another state?
Is a state university an arm of the government if their board of trustees is appointed, not
elected, they are capable of paying compensative and punitive damages to me out of their own
financial assets, and they are totally governed by a board of trustees and are not an extension of
a government agency?
Can a state university interfere with my 14th amendment rights of fair due process by trying to
influence and interfere with another states' courts?
Can a state university obliterate a citizens' calling in life by claiming that a citizen from another .
state cannot sue them because they have sovereign immunity?
Can a public entity or state university claim immunity from criminal activity in another state
because they consider themselves an arm of the government?
Is sovereign immunity defended by the Constitution when the Constitution declares that "We
the People" or every citizen, not just some, are subject to the laws set forth in a nation?
Can a state university commit invasion of privacy by harassing and stalking a former student,
and then preventing the publication of her book by paying financial incentives to publishers,
courts, and private citizens?

9. Can a state Supreme Court of Nevada ignore criminal evidence and points of law in my favor and

10.

11.
12.

13.
14.

omit them from my file while presented by a pro per plaintiff to change the outcome of a case,
and are they guilty of a gross misdemeanor or class D felony for doing this?
Can Nevada Supreme Court ignore Nevada Revised Statue 171.010 which states public entities
or persons from another state or territory entering the state of Nevada to commit criminal
offenses are subject to the laws and the prosecution of the state of Nevada?
Under Nevada Revised Statute 171.010, why wasn't the CSU charged with criminal activity in
this case?
Why didn't I receive a pro bono attorney after requesting one several times in Nevada courts
when criminal activity was evident in this case, and I am low income and the Pro Bono Project of
Legal Aid Center of Southern Nevada and Nevada Pro Bono Appellate Program provides this?
Was it abuse of power for the CSU to stop publication of my book and claim immunity from
prosecution?
Why did the CSU do this to me in the first place? Was it because they thought that they could
get away with it, and because of their prestige, power, and immunity it was easy for them to
make the jump to criminality?

LIST OF PARTIES
X All parties appear in the caption of the case on the cover page.

RELATED CASES
Matthews v. California State University, No. 79898
Nevada District Court. Judgment entered January 6, 2020

Matthews v California State University, No. 81120 COA
Nevada Supreme Court of Appeals. Judgment entered April 16, 2021

Matthews v California State University, No. 81120
Nevada Supreme Court. Judgment entered July 6, 2021

>

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

Z

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT.

14

CONCLUSION

34

INDEX TO APPENDICES
APPENDIX A Decision of the Nevada Supreme Court of Appeals
APPENDIX B Decision of the Nevada District Court
APPENDIX C Decision of the Nevada Supreme Court Denying Review
APPENDIX D Order ofthe Supreme Court Denying Rehearing

TABLE OF AUTHOTITIES CITED
:
CASES

PAGE NUMBER

Case #81120

7,8,13

Volk vs. Board of Trustees
Mark Armitage vs California State University, Northridge

10
10

Hans vs Louisiana, 134 U.S. 1,18.

13

STATUTES AND RULES
Nevada Revised Statute 171.010

7,9,

Nevada Revised Statutes 197.020

10

Nevada Revised Statutes 199.220

9

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix C
to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[m] is unpublished.
The opinion of the Nevada Supreme Court denying- rehearinaourt
appears at Appendix 0__ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
M is unpublished.
The Opinion of the District Court appears at APPENDIX B to the petition and is unpublished '
The Opinion of the Nevada Court of Appeals appears at APPENDIX A and is unpublished

to

JURISDICTION
t ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was July 6, 2021
A copy of that decision appears at Appendix C
[ ] A timely petition for rehearing was thereafter denied on the following date:
July 26, 2021
, and a copy of the order denying rehearing
appears at Appendix Jl
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The first amendment freedoms of speech, press, and religion as they appear in the United States
Constitution.
The fourteenth amendment right of due process in the United States Constitution and equal
justice leading to an unequivocal decision.
The Nevada Revised Statute 171.010 Jurisdiction of Offense Committed in State. Every person,
whether an inhabitant of this state, or any other state, or of a territory or district of the United
States, is liable to punishment by the laws of this state for a public offense committed therein,
except where it is by law cognizable exclusively in the courts of the United States.
[1911 Cr. Prac. 6908; NCL 10705]
The Nevada Revised Statute 197.020 Bribery of other public officers. A person who gives, offers
or promises, directly or indirectly, any compensation, gratuity, or reward to a person executing
any of the functions of a public officer other than as specified in NRS 197.010,199.010 and
218A.960, with the intent to influence the person with respect to any act, decision, vote or
other proceeding in the exercise of his or her powers or functions, is guilty of a category, C
felony and shall be punished as provided in NRS 193.130.
[Part 1911 C&P 46; RL 6311; NCL 9995]- (NRS A967, 460; 1979,1417;1995 1170)
The Nevada Revised Statute 199.220 Destroying Evidence. Every person who, with intent to
conceal the commission of any felony, or to protect or conceal the identity of any person
committing the same, or with intent to delay or hinder the administration of the law or to
prevent the production thereof at any time, in any court or before any officer, tribunal, judge or
magistrate, shall willfully destroy, alter, erase, obliterate or conceal any book, paper, record,
writing, instrument or thing shall be guilty of a gross misdemeanor.
[1911 C&P 93; RL 6358; NCL 10042]
The right in our Constitution to the pursuit of life, liberty, and the happiness that encompasses
ones calling in life, and to pursue this calling with freedom from the interference of large public
entities like California State University.
"We the People" in the Constitution is inclusive of everyone in the United States, and does not
and should not be only for some because of immunity for criminal actions. The meaning of the
original Constitution did not make exceptions for immunity from criminal or negligent actions
just because of affiliation with the government in some capacity. This has not and will not
change as the Constitution originally set up laws for all "we the people" to follow, and not allow
some to get away with criminal actions because they are part of a government or public entity.
There exists a conflict between the decision of the Nevada Supreme Court to allow the CSU to
continue to commit criminal activity in the state of Nevada because of "immunity" and other
states appellate courts on the same issue. This includes the George Floyd case where a police
officer, Derek Chauvin, was convicted of murder in the death of George Floyd. The family of

3

George Floyd also received several million dollars in a civil suit against the police department in
Minneapolis, Minnesota. The appellate court in Minnesota has opened the right to sue public
entities including police departments and State Universities, and there is a law being legislated
at this time in Washington D.C. to eliminate immunity in all or many of its forms, and it is going
to be named after George Floyd. President Biden has stated many times that nobody is above
the law, including state universities. The time is coming when immunity in any form will be
obliterated from our laws once and for ail and everyone will stand accountable for their criminal
and negligent actions. This is what our Constitution originally intended, and is the only way it
should be in a democratic society where as the United States Supreme Court states there is and
should be "Equal Justice For All."

4

Xlll. Statement of the Case

Bureaucracy is choking out the individuals will, or ability to fight in court or even argue. The
individual has no place to turn. The individual has limited resources to fight this case verses big
government entities like California State University who get millions of dollars in donations
every month so they feel that they can just step on you and squish you like a bug. According to
the 14th amendment there has to be a recourse or avenue for the individual to air and have his
grievances heard in an unequivocal and unbiased manner.
I contacted several large law firms licensed to practice in front of the United States Supreme
Court and they all only dealt with high end businesses or entities. I was never given a pro bono
attorney even though I asked for one multiple times in the Nevada Courts. This violated my
freedoms of speech, press, and religion and freedom of assembly because California State
University has already been there, then the law firms don't seem to be interested in talking. This
is almost like character assassination. At first the law firms seem interested, but after the CSU
has been there they're not interested anymore. This is like intense libel at every turn they are
trying to kill off everything I try to do, including publishing my book. This is paramount to libel
and slander, and interferes with my first amendment rights, and is by word of mouth.
The freedoms of speech, religion, and press clash with defamation laws. The CSU used
defamation to try to impugn my character. Defamation is a false statement of fact. The first
amendment attached essential dignity and worth of every human being and is a concept at the
root of any decent system of ordered liberty, in other words a fair shake. This attacks the very
basis of our democracy whereby big business obliterates the small guy so this leads one to
believe what kind of defamation or liable is taking place. The CSU is interfering with my first
amendment rights and I am not privy to the information they gave to these people because it's
the reason for denial. My entire case in the Nevada Supreme Court was denied within a week
after I reported wrongdoing by the court. I don't know what constituted their decision but it is a
known fact that the CSU was there prior to every incident that occurred. All incidents were not
in California, most were in Nevada, and a book deal came out of Mill City Press. How can Nevada
argue this is out of their jurisdiction when a lot of things didn't happen within the state of
California, but mostly in the state of Nevada? The attorney generals' office in Nevada states that
this case is out of their jurisdiction, this is too broad of a case to try to handle without an
attorney. I asked for a pro bono attorney several times and I was denied one, even though the
CSU hired a large law firm in Reno with several high - end lawyers.
I am a graduate of California State University, Sacramento. I graduated with a Master of
Science degree in counseling with a specialization in career counseling Suma cum laude. I am
also the recipient of the prestigious William Randolph Hearst/CSU Trustees Award for
Outstanding Achievement. The CSU was using me as a posterchild for getting donations after I
won this award. I found that most of the donations were going for personal use by CSU
employees and not for educational purposes. I told the CSU that I would not do publicity for
donations for them anymore, and this is when the harassment by them toward me started.
After my internship, which was filled with harassment up at CSUS, the CSU was always on my
radar. I later moved to Nevada and wrote a book called, "Walking Between the Shadow and the
Light". I signed a legally binding publishing contract with Mill City Press, and they accepted my

5

manuscript right away even though they only accepted less than 10% of the manuscripts sent to
them. For over two months Mill City Press did a great job, paginated my book, made a nice
cover, and nice editing detail. All of a sudden, the CSU showed up and stopped me. Mill City
Press stopped everything after the CSU met with them. What constituted their decision not to
publish my book? After the CSU got involved, my book got messed up. Then all of a sudden
swear words were put in there, they left chapters out, put in words of a satanic nature, and they
literally sabotaged my book. They literally turned my book into rubbish.
When I asked for my money back, they would not return it. They literally cut off ail contact
with me and would not answer my phone calls or letters asking for the return of my money. I
filed a fraud charge against Mill City Press with Wells Fargo Banks legal department. They did
not answer Wells Fargo Banks lawyers for well over a month which adds to my suspicions that
funny business was going on. It was admitted finally that fraud occurred by Mill City Press for
financial incentive. Wells Fargo Bank had threatened to sue Mill City Press for fraud, and a day
before suing them they sent ail of the money I paid them back.
I also had purchased a computer at a Best Buy store on South Virginia Street in Reno, Nevada.
I left it overnight after I bought it to have Dragon Naturally Speaking software installed. On the
16th day after I bought the computer the computer would turn blue and erase itself without
even touching anything when I dictated to it. Swear words would pop up while I was dictating
chapters and the picture would go from small toward big and all kinds of weird things started
happening. I asked for my money back but they would not give it back since the 15th day was the
last day that you could return it. I believe Best Buy was given a financial incentive by the CSU to
put a Trojan horse spyware into my computer so they could mess up my book and keep it from
being published. I brought a case against Best Buy in the Washoe County small claims court.
Mediation did not work so it was set to be heard by Judge Walker. On the day of the hearing I
thought that Best Buy employees were not going to appear since they were not seated in the
area for defendants. When I walked into the courtroom the Best Buy employees came out of the
judges' chambers with Judge Walker. I knew right then the whole thing would be tainted and
biased. There was also no audience in the courtroom as there usually is in these cases.
Judge Walker went around and around for two and a half hours ignoring letters from a
Washoe County Manager who wrote a signed letter that he had seen the computer turn blue
and erase itself without touching anything. Judge Walker finally admitted that there was a
Trojan horse spyware put into the computer, but he could not definitively say that Best Buy
employees installed it even though I told him that the computer had never been out of my
possession. My rights of privacy were violated here also. This leads me to believe that there was
bias here. That some back - door deal was made, and this computer had my manuscript on it.
Eventually the entire computer was taken over by the Trojan horse software and became totally
useless to me costing me over one thousand seven hundred dollars. I was able to get the
manuscript out over time despite all the interference by the Best Buy Geek Squad employees.
This just shows how corrupt the Nevada court system is.
My case then went to the district court in Carson City, Nevada. Judge Wilson just dismissed '
everything that I did. The CSU attorneys would send a motion with whatever they wanted Judge
Wilson to do, and leave a place for him to sign on the motion. A few days later Judge Wilson
would just sign the motion. I had appointments for oral arguments and my testimony and Judge
Wilson just cancelled these also. Judge Wilson ignored all of the criminal evidence that I

e

presented to the court, and kept stating that the CSU had immunity, i tried to get Judge Wilson
off of my case, but he would not recuse himself. I filed a complaint with the Judicial
Performance Commission, but they didn't do anything about his behavior. I believe financial
incentive was the reason he would not recuse himself. I applied to the Supreme Court next and
they sent the case back to the district court because they did not adjudicate a timely stay that I
had entered. The entire time back in the district court for a second time was a nightmare. The
same trajectory of elimination of evidence of criminal conduct by the CSU toward me was
perpetuated, and eventually the case was dismissed again in the district court. I then had to
apply once again to the Supreme Court of Nevada. Each of these court transfers cost me two
hundred and seventy- five dollars each. The Supreme Court of Nevada then transferred my case
to the Court of Appeals.
The Court of Appeals took two months to respond to my case #81120. When they did
respond the review of my case contained half-truths, lies, and innuendos. I then had to pay an
additional $150.00 to have a rehearing on my case. The Supreme Court of Appeals denied my
request for a rehearing. I had typed up a 10 - page response that outlined all of the
inconsistencies and outright lies that were contained in the Court of Appeals original response.
As usual they just ignored everything that was to my benefit and rules of law including Nevada
revised statutes 171.010. They also left out the case against Mill City Press that I filed with Wells
Fargo Bank. The case with Wells Fargo Bank proved that California State University bribed Mill
City Press not to publish my book for financial incentive. They also never brought up the small
claims case against Best Buy that looked like a three - ring circus rather than a court of law. They
deleted all of the criminal evidence that I submitted to the Supreme Court of Nevada and
basically just left out anything that was to my benefit. This was not fair to me. The Court of
Appeals stated that Mill City Press refused to complete the publication of my book. The truth is
that they just messed up my book for financial incentive. I asked Mill City Press for my money
back several times and they did not answer me. It was not until I filed the Wells Fargo case
against Mill City Press, and Weils Fargo legal department threatened to sue Mill City Press for
fraud that my money finally came back.
California State University is the only public entity that could afford to pay a huge bribe to
Mill City Press not to publish my book, and the only one to have the financial ability and
motivation to do so, as well as a history of interfering in my life in a negative harassing manner
for 14 years now since graduating with a masters' degree in counseling with a specialization in
career counseling Suma Cum Laude. This entire situation on the part of California State
University has caused me severe stress, emotional distress, loss of income, as well as halting my
upcoming career as a spiritual speaker and author. California State University crossed over from
California into the state and jurisdiction of Nevada to intentionally and maliciously stop the
publication of my book "Walking Between the Shadow and the Light."
I then sent the case #81120 to the Nevada Supreme Court and asked for a final review of this
case. I went into the Nevada Supreme Court clerks' office after completing the compelling
reasons why this case should be reviewed by them. I had made several copies of the final review
at the District Court in Carson City. When I arrived at the Supreme Court in Carson City I noticed
that page #10 which contained Nevada revised statutes 171.010 was not in the packet. I had a
Supreme Court clerk run off four more copies and add page #10 to put in my packet for the
Supreme Court to review. I had four copies of the packet and put all four copies on the ledge

1

outside the window of the Supreme Court clerks' office. I then inserted the four copies of page
10 into the packets. A Supreme Court clerk rushed over to take the original packet. I told her
that I wanted to make sure that the original packet contained page #10. Being certain that page
#10 was in the original packet, I handed the packet over to the Supreme Court clerk. I noticed
that the Supreme Court clerk stamped the packet and then reached into the packet and pulled
out some papers in the middle of the packet. She then went around the corner and I heard the
copy machine go on. She then came back and set some papers aside and then put some papers
back into the packet. I noticed that something was wrong because once a packet is stamped it
should go right up to the Supreme Court and not be tampered with. I asked to see my packet
once again. The court clerk was very reluctant and said I couldn't see it because once it was
stamped it was supposed to go straight up to the Supreme Court. I told her that I had seen her
take something out of it and put something back into it and I wanted to make sure that page 10
was still there. She finally came over with the packet but she held her finger at the bottom so I
couldn't see what was in it. I told her to remove her finger which she reluctantly did and l found
that page 10 was not in the packet, but two copies of page nine were. I believe somebody in a
higher position than she was set her up and conspired to remove page 10 from my packet. I told
the clerk that page 10 was not in the packet but two - page nines were in the packet. I took page
10 out of one of the extra packets and inserted it into the original packet that was to go to the
Supreme Court. The Supreme Court clerk appeared to become very agitated and started running
around like a chicken with its head cut off. She said that everything was going up to the
Supreme Court and we could not touch anything else. She then told me just to wait until I heard
from the Supreme Court.
She was acting so crazy that I decided to just leave and come back on Monday. I wrote up
another motion to give to the Supreme Court explaining what had happened the Friday before. I
included another page 10 just in case a court clerk had taken it out once more. This Supreme
Court clerk that had taken the page 10 out looked very guilty and didn't even look up from her
desk while I was there. She usually was very boisterous and talkative when I came in. I
requested in my motion that the Nevada Supreme Court review page 10 and adjudicate it as it
related to my case #81120.1 also asked them to review the three reasons that I put explaining
why California State University is not an arm of the government, the Wells Fargo case, criminal
evidence against the CSU that had been obliterated from my file, and other points of law and
evidence that was to my benefit in this case. I also asked once again to be assigned a pro bono
attorney, and I found the Legal Aid Center of southern Nevada to help appeal cases to the Court
of Appeals in the Nevada Supreme Court. Since 2016 80 pro bono attorneys have been
appointed to low income citizens of Nevada and they all are volunteers so it would not have cost
the Nevada Supreme Court anything to appoint a pro bono attorney for me. I asked for some
extra time to find a pro bono attorney or to have my case taken by the law school in Las Vegas.
It usually takes the Supreme Court around a few months to get back to a motion or a request. In
just one week the Nevada Supreme Court denied my request for review and shut the case down
with no explanation and no pro bono attorney to represent me.
I believe the Nevada Supreme Court shut my case down because they knew that there was
wrongdoing and financial incentives involved in this case and they did not want to open a can of
worms that would have exploded and showed them to be guilty of wrongdoing. They also did
not want a legal recording of any wrongdoing in this case and did not want to address the points

§

of law, criminality, and other evidence that would have changed the trajectory of this case. As I
mentioned before in the two years since I first filed this case there has not been one appearance
in a courtroom, no oral arguments, no testimony, no pro bono attorney, and no chance to be
heard before an unbiased and unbribed judge. Therefore, justice was not heard in this case and I
was just shifted around like a person who didn't matter and had no voice so the Nevada
Supreme Court and Court of Appeals could continue with their wrongdoing and financial
incentive to do it.
i then contacted the administrative secretary In the Supreme Court administrative offices and
she suggested that I write a letter to each of the seven justices asking them to review and
adjudicate this case in its totality and completeness including all the criminal evidence against
California State University that I submitted to them, the reasons I put why California State
University is not an arm of the government, the Wells Fargo case, and Nevada revised statutes
171.010.1 had explained to them also they had not addressed any of these elements when I
reported wrong doing, nor had they addressed any of these elements, criminality and points of
law at any time during the entire process in the courts of Nevada. I explained that they had not
addressed the entirety of the evidence and points of law that I had submitted to them in my file
and they were making their decision to shut my case down based on an incomplete and
tampered with file. They only addressed those points that they felt were not to my benefit and
were to the benefit of California State Universities legal counsel. Based on the fact that the
Nevada Supreme Court closed my case so quickly, and without making the decision based on the
entirety of all the evidence and points of law I submitted including Nevada revised statutes
171.010,1 asked them to rehear the case and to review it once again and include the totality of
the points of law and evidence I submitted. I had to insert page 10, which included Nevada
revised statutes 171.010, twice and they took it out twice which leads me to believe that there
was funny stuff going on all along in this case. I also called the head of the Nevada Supreme
Court clerks' office and made sure that page 10 had been included in my final request to have
the Nevada Supreme Court review my case. The Nevada revised statutes 171.010 states that
any public entity or person coming into the territory and jurisdiction of Nevada to commit
criminal activity whether they are from another state or territory are subject to the laws of
Nevada and are prosecuted in the courts of Nevada. Why wasn't California State University
prosecuted for the criminal activity that they perpetuated towards me including paying Mill City
Press not to publish my .book? Under Nevada revised statutes 171.010 California State
University should have been prosecuted in the state of Nevada for their criminal activity, and it
does not matter that they are from a different state. Nevada seems to be divided against itself
by ignoring one of their own statutes for financial incentive in this case which is a crime right
there.
Approximately a week later I received a letter from the Nevada Supreme Court signed by
Justice Hardesty that stated they would not re review my case nor would they adjudicate
anything that I had asked them to including Nevada revised statutes 171.010. There was no
other explanation given and no reasoning as to why they would not adjudicate these points of
law and criminal evidence against California State University that would have completely
changed the trajectory of this case in my favor. Instead as usual they just ignored anything
including rules of law and evidence that had any benefit to my case and deleted it from the
totality of my file which is a gross misdemeanor under Nevada Revised Statutes 199.220. This

leads me to once again believe there was financial incentive in this case, which is a class c felony
according to Nevada Revised Statutes 197.020.
Realizing that it was a complete waste of my time to try to have any more dealings with the
Nevada Supreme Court, I reported the entire process to the Nevada attorney general's office.
Approximately a week later I received a letter from Aaron Ford that stated that this was too
broad of a case for them to handle and they did not have the jurisdiction to investigate and
handle this case adequately. I believe that this is just an excuse to not investigate California
State University because I believe that the state of Nevada has some sort of collaboration with
California and California State University, and they don't want to get involved in this Hornets'
nest of wrongdoing by the courts in Nevada. I had previously reported several incidents of
criminal activity from California State University towards me to the Nevada attorney general's
office and I never received any response from them. When I called to inquire why I had not
heard anything, I received a letter from the Nevada attorney general's office stating that they
believed that in this case they lacked jurisdiction, and thus were not able to investigate and
prosecute California State University for their criminal actions towards me. Almost all of these
incidents of criminality happened in the state of Nevada so I don't really see how they can claim
they have lack of jurisdiction in this case.
The California State University crossed over from California into the state and jurisdiction of
Nevada to intentionally and maliciously stop the publishing of my book which is a criminal crime
and a felony, and caused crimes punishable under Nevada criminal statutes including
harassment, aggravated stalking, paying bribes to harm an innocent person, and trying to
literally kill anything that I tried to do in my life including my book. For this I am requesting
compensative and punitive damages as well as loss of income, and a permanent injunction
against the California State University ever having anything to do with me, my family, my
personal life, or any publishing of my books, or speeches, or living situations, or anything to do
with my life in general.
The California State University has an obligation to take responsibility for the damage they
have caused to me and my up and coming career. At some point justice has to prevail over
greed. I will also ask for my legal expenses to be paid by the California State University.
California State University has a history of retaliating in religious situations involving personnel
or former students that had some kind of notoriety at the university.
On November 11th 2016 court documents revealed that Mark Armitage, who identifies as an
evangelical Christian, alleged he was terminated by California State University Northridge after
publishing his findings which supported his young earth creationist beliefs. Armitage was told by
California State University Northridge that his termination was due to budgetary concerns and
lack of funding. Armitage's attorney, Alan Reinach, stated in an interview that the charges made
against the university were essentially religious discrimination and retaliation. Reinach
suggested others witnessed evidence of hostility towards creationism in the biology department
Mark Armitage worked in. Reinach stated that Armitage Received a six* figure financial
settlement that represented 15 times his annual part-time salary.
On March 20th 2019 the lawfare project and Winston and Strawn LLP reached a landmark
settlement in their lawsuits against California State University public university system. The
settlement in Volk versus Board of Trustees comes ahead of a scheduled trial for a lawsuit
brought by two Jewish students at San Francisco State University and the board of trustees of

10-

California State University which discriminated against them. Ross M. Kramer of Winston and
Strawn LLP stated "Our client's goal was to bring about meaningful lasting change at San
Francisco State University and throughout the California State University system, and to ensure
the rights of all Jewish students are safeguarded now and into the future. That's what this
settlement achieves."
There have been numerous other lawsuits against the CSU involving religious freedoms, and I
believe my case against them is synonymous with these other cases. There was also a case on D
James Kennedy ministries which involved a professor from California State University,
Northridge who published a paper with some religious overtones, and he replied that the CSU
harassed him and his family to the point that he lost his job, had to take his children out of
school, had to sell his home and move to get a job at a Christian university. He stated that the
harassment and criminal activity he received from the CSU was nothing short of satanic.
Prince Andrew was also recently presented with a charge that was criminal in nature for
having sex with underage girls. He should not be above the law either just because he's a
member of the royal family, and he should be held accountable for his crimes regardless of his
ability to hire high end lawyers. Immunity should not be given to anyone just because he has the
money prestige and power to buy his way out of this situation. This is where immunity becomes
dangerous because it precipitates more of the same criminal behavior if a person thinks that he
can get away with the criminal behavior. I doubt that Prince Andrew would have had sex with
these underage girls if he knew that he would could be held accountable for it, and would suffer
consequences of a criminal nature. Immunity in these situations is just a shield to hide under
and to escape prosecution and not be held accountable for criminal activities.
I believe sovereign immunity should be eliminated in all its forms as this gnaws away at the
very core of what our democracy stands for and threatens the First Amendment rights of
freedom of speech, religion, and press that our constitution guarantees. It also violates our 14th
Amendment rights of fair due process and the freedoms to pursue life, liberty, and the pursuit
of your fullest potential and calling in life which can lead to the fullness of happiness that every
citizen of the United states of America should be free to pursue in a democratic society as long
as it doesn’t step on anyone else's rights or perpetuate any kind of violence as in the case of the
recent insurrection. I believe this was an attack on our democracy to overturn the will and the
voting rights of the citizens of the United States and turn our democracy into a murderous
dictatorship much like Russia and communist countries. The Constitution states "We the
People" which means that everybody is subject to the laws that are set forth in the Constitution
and this country. Nobody should be above the law, not employees of the government,Presidents of the United states, perceived arms of the government, or anybody else. Sovereign
immunity was originally set up so that kings would not have any consequences for their actions
including criminal behavior. Even in Pharaohs days 2000 years ago in the Bible the king did every
kind of wrong and often got away with it. It is time to delete sovereign immunity in any form of
wrongdoing so once again all Americans are subject to the same laws, and nobody and no State
University is above the law.
In the recent George Floyd case Derek Chauvin was convicted in the death of George Floyd. A
police officer should not be above the law and should not get away with murder because he or
she is wearing a badge. President Biden stated on April 21st 2021 that nobody is above the law.
Why then should a State University be above the law? If Derek Chauvin had known that he could

It

be prosecuted for murder and serve over two decades in prison he would not have murdered
George Floyd. There were 17 complaints that were previously filed against Derek Chauvin
including one where he kept his knee on a man’s neck for over 15 minutes, and he was not
prosecuted for any of these complaints which gave him the idea he was immune from any kind
of consequences for his actions. There are certain dangers that accompany every kind of job,
and an employee has to be cognizant of them. Sovereign immunity deletes any kind of
consequence to an employee and gives them the idea that they can use excessive force and
even commit murder and get away with it.
On March 21st 2020 Charles Lorentz was driving to his home in Colorado after finishing a job
in Texas. A Sheriffs Department in New Mexico gave his mother the horrifying details that her
son had been shot by a National Park Ranger, twice. He was dead. It seems that nobody had
bothered to contact his mother. He had been pulled over for a minor traffic stop and drugs or
alcohol was not a factor. Apparently, Kimberly Becks son Charles, who had an even
temperament had an altercation with the park Ranger that left him dead. After obtaining
footage from the Rangers body camera the video went blank for 26 seconds which deleted the
Ranger shooting Kimberly Becks son at point blank range twice. This behavior is called murder.
Apparently, the Department of Justice does not call this murder. Her son was shot while he was
wounded and unarmed. The District Attorney in this case would not press criminal charges
because the park Ranger was a federal law enforcement officer. If the park Ranger were a
citizen or civilian he would have been prosecuted for this crime. Kimberly Beck's family tried to
bring a civil rights case against the park Ranger, but the government's attorneys stated one
could not be brought against the park Ranger because of qualified immunity. Qualified immunity
bars a civil suit from going forward unless there is a previous published case that is so similar in
nature an officer would have to know his actions were unconstitutional. The case was never
adjudicated because of this immunity and the park Ranger got away with murder and there was
nothing that Kimberly Beck or her family could do about it. They had no other recourse because
of this immunity, and there are so many other citizens of the United states who have suffered
terrible crimes and because of immunity cannot prosecute the perpetrators.
Qualified and sovereign immunity allow those who commit criminal activity to hide from
justice and avoid all responsibility and consequences for their actions. If that park Ranger had
known that he was not immune from prosecution, he would not have murdered a 25 year old
man that did not deserve to die the way that he did. It's almost as if his life didn't count for
anything, and that his life didn't matter because of the immunity that our government
proliferates.
The Department of Justice states its mission is: "To ensure public safety against threats that
are foreign and domestic; to provide federal leadership in preventing and controlling crime; To
seek just punishment for those guilty of unlawful behavior; and to ensure fair and impartial
administration of justice for all Americans." Why are our government employees and so * called
arms of the government getting away with criminal activity and not being held accountable for
the consequences of their actions? Sovereign immunity, qualified immunity, and limited
immunity eliminate just punishment for those guilty of criminal behavior, which is not ensuring
fair and impartial administration of justice for all Americans.
The 11th amendment confirms that the constitution was not meant to raise up any suits
against the states that were anomalous and unheard of when the Constitution was adopted.

12.

"Hans v. Louisiana, 134 U.S. 1,18." The inference here being sovereign immunity does not apply
in all cases including my case #81120 and was not part of the intended interpretation of the
original Constitution. The 11th amendment immunity does not protect municipal corporations,
public entities, or other government entities that are not political subdivisions of the state, such
as cities, countries or school boards and universities. The 11th amendment does not
automatically protect political subdivisions or arms of the government from state liability. The
California State University can be sued in the state of Nevada and it's not legally an arm of the
government because the board of trustees is appointed not elected, they are perfectly capable
of paying compensative and punitive damages from their own asset base, and they operate
completely independently from the government by a board of trustees. Just because they
receive some state and government funding does not make them an arm of the government.
Libraries, bus stations, and other public entities receive some state and government funding and
are not considered arms of the government so why is California State University considered an
arm of the government? The CSU does not operate as an alter ego of the state. In my case there
has been an abuse of power by California State University which has led to substandard
leadership in California State University because they know that they have immunity. The board
of trustees at California State University can appoint anybody they want to and anybody that
shares their view, and this is what brings down a country. It is no longer the individual but who
you know, even the governor of California is on the board of trustees. They basically form a little
click to do anything that they want to do, and believe they have immunity to get away with it.
The 14th amendment will trump state sovereign immunity. Congress can authorize suit
against the state, and can hear a case and overturn a states Supreme Court decision if it
concludes unethical behavior was involved in the decision.
Thus, I conclude the District Court, the Court of Appeals, and the Nevada State Supreme
Court did err in dismissing Matthew's complaint and abuse its discretion in denying Matthews
post judgment motion for relief from the dismissal orders, and from the entire dismissal of this
case by the Nevada Supreme Court especially so quickly after wrongdoing was determined.
Heather Matthews requested a pro bono attorney before any decision was reached in this case
and was not giving one. No opportunity for personal testimony, or oral argument, or any
appearance in a court of law with or without an attorney was given. California State University's
legal counsel simply wrote proposed orders and the judge signed them, and evidence of
criminality toward me by the CSU, and points of law to my benefit were deleted from my
records and ignored.
Therefore, sovereign immunity should be abolished in all forms including this case so all
Americans stand accountable for any infractions of the law including state universities, and no
other American has to endure the injustices and assaults to my civil and constitutional rights and
freedoms of speech, press, and religion that I have endured by the California State University
and the Nevada court systems. I pray that the Supreme Court of the United states will grant this
case for certiorari so that my rights and the rights of thousands of people coming after me in
similar situations will be protected and there really will be "Equal Justice Under the Law" for all
citizens of the United states.

13

Reasons for Granting the Petition
The Nevada State Supreme Court has decided or in this case ignored an important federal
question in a way that is in conflict with other states courts of last resort. Sovereign immunity
has been somewhat limited and obliterated in other states including the case involving George
Floyd. There is now an act before Congress to be named after George Floyd that would
' eliminate immunity in the cases of police officers and hopefully other public entities like
California State University. This is to ensure the First Amendment rights of the citizens of the
United States including their freedoms of speech, press, and religion, and their 14th amendment
rights of due process. The Supreme Court of Nevada has decided an important question of
federal law deciding to ignore its own Nevada Revised Statutes 171.010 and enable California
State University to get away with criminal activity in the state of Nevada. It appears they did this
for financial incentive. I also think that attorneys have been reluctant to take on the California
State University because the attorney doesn't have the wherewithal to fight it so the Supreme
Court must take this case and is the only one qualified to handle such a large entity. The
question of sovereign immunity, qualified immunity, or limited immunity should be addressed
by the United States Supreme Court as it is highly outdated and should be eradicated in all of its
forms so that we can be assured of equal justice for all.
I also have to wonder why my case was dismissed so quickly from the Nevada Supreme Court
after I reported wrongdoing. The California State University is the largest and wealthiest State
university system. I believe Nevada and California are cooperative in other areas with each other
and Nevada didn’t want the huge can of worms that this would open. I want the criminality of
this case addressed. I know that the Supreme Court has the right to not answer a lot of things
but they do not have the right to omit criminality and Nevada Revised Statutes 171.010 answers
the question that California State University must stand liable for the criminal activity they
committed against me in Nevada. I want this addressed in all legal forms and formats. This is
both a criminal and a civil case because my due process rights have been violated. The key here
is that California State University is responsible for the denial of my First Amendment rights of
freedoms of speech, religion, and press, and has gone against one of the first courses that I took
in my masters' program which is multicultural education. This course teaches diversity amongst
different cultures religions and belief systems. Multicultural education teaches a tolerance for
belief systems and religions of other people even if we don’t agree with everything that the
other person believes. An understanding of different religions and cultures should be
incorporated into the decisions of state supreme courts and the United States Supreme Court.
I am going up against the largest university system in the United States and the defense for
California State University has several top - notch lawyers working on this case. My case was
jacked around in the Nevada courts because I did not have an attorney and they wouldn't
appoint a pro bono attorney for me. My petition for certiorari should be granted as this is my
last chance to have an attorney hear this case in a just and unbiased manner. I have no legal
recourse for this case to be heard in a fair manner to ensure that people like me receive equal
justice under the law. There is no legal recording of anything submitted to the Nevada Supreme
Court, Court of Appeals, or Nevada District Court and I feel like I was treated like somebody
who is invisible and doesn't matter in the courts of the Nevada because I didn’t have an
attorney. I believe where criminality is involved everybody should be appointed a lawyer

/

whether they can afford one or not, even if it is a civil case originally. This is my last chance to
have my case heard by the United States Supreme Court because the Nevada courts have all
been corrupt and did not give me fair, unbiased, and unbribed representation and their
decisions were based on biased and unfair determinations.
The California State University has altered my life unfairly and I am unable to publish my book
unless I get the CSU off of my back and lam awarded damages because of the criminality they
have done to me. I also need to get a permanent injunction against the California State
University from ever having anything to do with my life, to publish my books, to give speeches,
or anything else involving my life in general. The California State University does not have a right
to try to stop the publication of my book or to step on my rights.
If California State University had been aware that they would be prosecuted for criminal
activity by crossing over into the state of Nevada with malicious intent to commit criminal
activity and then carry it out, they would not have committed the criminal and felony activities
against me that they have committed and continue to do so. By allowing sovereign immunity to
continue to exist as a defense against criminal activity by public entities or arms of the
government, the state of Nevada and other states are allowing criminal activity to continue
within their jurisdiction and borders and they refuse to prosecute the criminal activity. They are
just encouraging these public entities to commit more criminal activity and not be held
accountable for it. Many people in similar situations as I am in have had difficulty in prosecuting
criminal activity by public entities that claim that they have immunity from prosecution. This is
just a facade that they hide underneath to get away with criminal activity and not be held
accountable for it. If the CSU gets away with criminal activity against me in the state of Nevada,
why can't I go over into the state of California and do the same? This is not equal justice for all
that some people get away with criminal activity and some do not. The time is coming as with
the George Floyd case that nobody is above the law including police officers, State Universities,
public entities, or government employees. At the very core of our democracy is our Constitution
which guarantees rights and it sets us apart from murderous dictators in communist countries.
We almost lost our democracy during the insurrection and I hope The United States Supreme
Court upholds our democracy that tens of thousands of young men and women died fighting
for.
This case has to be decided by the United States Supreme Court since tens of thousands of
people have had egregious crimes committed against them and cannot prosecute the offenders
because of claims of immunity. I have a right to my pursuit of life, liberty, and my calling that
would bring me and many others happiness as well as the truth of spiritual information to live
by as well as to exercise my freedoms of speech, press, and religion without having a State
University system bribing publishers and courts and other officials and people in general to stop
the publication of my books and endanger my safety. I have a right to my constitutional and civil
rights and the I pray that the Supreme Court of the United States will do everything in its power
to make sure that these rights protected by our Constitution are adhered to.
Justice Hardesty of the Nevada Supreme Court voluntarily disqualified himself from this case
because he was involved in another case with the same law firm that is representing California
State University. Justice Hardesty later stated that he felt he was qualified to represent himself
in the decisions of this case. I wrote a motion stating that i wanted to know more about his
involvement with this law firm and what the case was about that he was represented in. Once

/5

again, the Nevada Supreme Court just ignored everything that I requested and Justice Hardesty
continued to represent himself in the decision - making process in my case. I feel that this was
unfair and biased towards me because they did not respect my right to have knowledge of the
type of case Justice Hardesty was involved in, and his relationship with the law firm that is
representing California State University. Justice Hardesty is the one who denied my right to have
my case reheard in the Nevada Supreme Court, and he also denied my request to have page
number 10 in my Supreme Court review packet, which contained Nevada Revised Statute
171.010, adjudicated as to how it relates to the specifics of my case. The whole case in the
Nevada Supreme Court was shut down permanently a week later which I find to be very
suspicious. Justice Hardesty stated that page #10 was in the final review packet that they
considered all along and this is not the truth. Page #10 was taken out of my review packet twice,
and I had to reinsert it twice in order to make sure that the Nevada Supreme Court received
page #10 along with the other pages in the Nevada Supreme Court review packet. Page #10 was
never adjudicated and reviewed as to its merits regarding my case. I believe there was a conflict
of interest here and possible bias toward me. Justice Hardesty had two cases with the same law
firm at the same time, and both were with the CSUs law firm. How do I know there was not
some kind of bias with this issue or collaboration with the CSUs law firm? Something doesn't
add up. There is a conflict of interest with this law firm and Justice Hardesty at this time.
Page number 10 was taken out of my review file twice because they didn't want anything
that was to my benefit being represented in my case file, and they were also aware that
California State University precipitated criminal activity towards me many times. They were
trying to cover this up or they would have had to prosecute California State University for the
criminal activity they committed toward me in the state of Nevada. Since Nevada Revised
Statute 171.010 states that it doesn't matter if a place or public entity is from another state or
territory, if they are committing criminal activity in the state of Nevada, they are subject to
being prosecuted for those criminal activities under Nevada laws and statutes. I believe they
closed my case so fast after I reported the wrongdoing because they didn't want a can of worms
opened, and they would have had to return the financial incentives or bribes they received to
make sure that this case wouldn't go anywhere in the Nevada court system.
This definitely shows that there was bias involved in my case, and that criminal activity was
covered up numerous.times because they didn't want to adjudicate this case because of
financial incentives. If the Nevada Supreme Court is going to follow Nevada Revised Statutes,
including Nevada Revised Statute 171.010, it doesn't matter if California State University is from
another state, when the CSU came into the state and jurisdiction of Nevada and committed
criminal activity toward me, they voluntarily relinquished any immunity they claim to have.
This is just another reason that is quite serious to have the United States Supreme Court hear
this case, as it is also my last resort to have this case heard fairly and in an unbiased, unbribed
manner, and my last chance to continue my up and coming career as an author and speaker.
I Pray that the United States Supreme Court accepts this case and hears it on its merits
so that all citizens are guaranteed the rights that are protected under the United States
Constitution in all situations and at all times, and so that I may complete my calling in life
without interference, and enjoy my right to life, liberty, and the pursuit of my calling in life.
Thank you for your time and I pray that you will accept this case and change the laws of
sovereign immunity so we can guarantee "Equal Justice for All" and not just some.

)6

Nevada Supreme Court Pocket Sheet
Docket: 81120

Page 1

MATTHEWS VS. CAL STATE UNIV.

Case No. 81120

HEATHER MATTHEWS, AN INDIVIDUAL,
Appellant,
vs.
CALIFORNIA STATE UNIVERSITY, A CALIFORNIA PUBLIC ENTITY
Respondent.

Consolidated with:

Counsel
Heather Matthews, Carson City, NV, Appellant, in proper person
Robison, Sharp, Sullivan & Brust, Reno, NV \ Michael A. Burke, Hannah E. Winston, as counsel for Respondent.
California State University
Case Information
Panel: Panel

Panel Members: Unassigned

Disqualifications:
Case Status: Briefing in Progress
Category: Civil Appeal
Type: General
Submitted:
Oral Argument:
Sett. Notice Issued:
Related Court Cases:

Subtype: Proper Person
Date Submitted:
Sett. Status:

Sett. Judge:
79455, 79898.

District Court Case Information

Case Number:

19TRT000371B

Case Title: HEATHER MATTHEWS VS. CALIFORNIA STATE UNIVERSITY
Judicial District: First
Sitting Judge:

County: Carson City

Division:

James E. Wilson

Replaced By:
Notice of Appeal Filed: 04/30/20

Judgment Appealed From Filed: 04/23/20

Appeal
Docket Entries

Date
Docket Entries
05/01/20 Filing Fee due for Appeal. (SC)
05/01/20

Filed Notice of Appeal/Proper Person. Appeal docketed in the Supreme Court this day.
(SC)

20-016620

05/01/20 Justice James W. Hardesty disqualified from participation in this matter. Disqualification
Reason: Voluntary Recusal. (SC)
______________________________
05/01/20

Issued Notice to Pay Supreme Court Filing Fee. No action will be taken on this matter
until filing fee is paid. Due Date: 10 days. (SC)__________________________

20-016626

05/04/20 Filing Fee Paid. $250.00 from Heather Matthews. (CASH). (SC).
05/05/20 Filed District Court Notice of Deficiency. Filed in district court on: 4/30/20. (SC)

20-016908

05/05/20 Filed Proper Person Document - Editorial Notes for Walking Between the Shadow and
the Light. (SC)

20-016938

Tuesday, September 22, 2020 10:20 AM

17

(W
Nevada Supreme Court Docket Sheet
Docket: 81120

Page 2

MATTHEWS VS. CAL. STATE UNIV.

05/05/20 Issued Notice Regarding Deadlines. (SC)

20-016945

05/08/20

Filed Proper Person Appellant's Informal Brief. (SC).

20-017604

05/08/20

Filed Proper Person Docketing Statement Civil Appeals. (SC).

20-017605

05/08/20 Filed Proper Person Letter in Regards to Filing Fee. (SC).

20-017609

05/15/20 Filed Proper Person Appellant's Letter Regarding Case. (SC)

20-018629

05/15/20

20-018636

Filed Certificate of No Transcript Request. (SC)

05/27/20 Filed Proper Person Appellant's Notice Requesting Pro Bono Attorney. (SC)__________
06/04/20 Filed Proper Person Appellant's Letter Regarding Case. (SC)

________________ •

20-019986
20-020970

06/23/20

FiledProper Person Appellant's Letter Regarding Case. (SC)______________________

20-023324

07/08/20

FiledProper Person Appellant's Letter Regarding Case. (SC)_______________________

20-025081

07/21/20

FiledProper Person Appellant's Letter Regarding Case. (SC)________

20-026629

FiledOrder. Record on Appeal due: 30 days. Appellant has also filed a notice
requesting the appointment of pro bono counseUQJBBLesent her in this appeal. The
motion is denied, at this time. This court takes no action on the letters filed on May 8,
2020, May 15, 2020, JuneA.2020, JuQ£,23, 2020, July 8, 2020, and JuJy-21, 2020. This
appeal wilfbe decided as expeditiously as this court's docket permits. (SC)

20-027245

07/30/20

Filed Proper Person Appellant's Motion Regarding Case. (SC)

08/03/20

Filed Copy of District Court Docket Entries. (SC)

20-027811
20-028245

07/27/20

____________________

_________________

,

/^ JV
&&
Cj

____________________

20-028451

08/05/20

Issued Notice of Justice No Longer Disqualified. Upon further review, Justice Hardesty is
no longer disqualified and will be participating in the decision of this appeal. (SC)._______

20-028637

08/06/20

Filed Notice of Voluntary Disclosure. You are hereby notified that the law firm of Robison,
Shafp7Sullivan_& Brust previously represented me (Justice Hardesty) in an unrelated
matter for which I do not believe .disqualification is required. The undersigned makes this
disclosure, however, so that any party who believes disqualification is appropriate may file
a timely motion to disqualify pursuant to NRAP 35. Any motion to disqualify must be
made in writing within seven (7) days of the filing date of this voluntary disclosure. (SC)

20-028962

08/04/20 Filed Proper Person Appellant's Letter Regarding Case. (SC)

08/06/20 Filed District Court Docket Entries. (SC)_____________________ ______________ ___

20-028979

08/10/20

Filed Proper Person Appellant's Response to Notice of Voluntary Disclosure. (SC)______

20-029329

08/24/20

Filed Ordfer. Appellant has filed a response to the notice._oLygiuntary disclosure filed on
August 6, 2020. Appellant, in her response,Tequestspnorej^nformaiion^from Justice
Hardestyje.qardjng .the-.potential.disqtLalificatjgn but.asks that Justice Hardesty be
disqualified until she has reviewed that information. Appellant in her August 4, 2020,
letter filed with this court requests that Chief Justice Pickering be removed from this
appeal. These requests are construed as motions for disqualification pursuant to NRAP
35. Appellants motions do not meet these standards and are, therefore, denied.
Because theielettersTIol^uippear to request additional relief which this court can
grant, this court takes no action on the letters filed on July 30, 2020, and August 4, 2020.

20-031064

_________ (SC) ’

__________________________________________ _____________

08/28/20

Filed Record on Appeal Matthews vs. Cal State Univ. (SC)___________ __ ___________ _

20-031850

08/28/20

Filed Record on Appeal Matthews vs. Cal State Univ. (SC)_____________

20-031851

09/01/20 Filed Proper Person Appellant's Letter Regarding Case. (SC)

20-032212
Tuesday, September 22, 2020 10:20 AM

*8

IN THE SUPREME COURT OF THE STATE OF NEVADA
No. 81120

HEATHER MATTHEWS, AN
INDIVIDUAL,
Appellant,
vs.

CALIFORNIA STATE UNIVERSITY, A
CALIFORNIA PUBLIC ENTITY,
Respondent.

AUG 2 ‘i 2020
ELIZABETH A. BROWN
CLERK OF SUPREME COURT

av

^. V
DEPUTY CLERK Q

ORDER
Appellant has filed a response to the notice of voluntary
disclosure filed on August 6, 2020, notifying appellant that Justice Hardesty
has determined that his disqualification is not required in this matter. The
notice informed appellant that she could file a motion to disqualify puisuant
to NRAP 35. Appellant, in her response, requests more information from
Justice Hardesty regarding the potential disqualification but asks that
Justice Hardesty be disqualified until she has reviewed that information.
Additionally, appellant in her August 4, 2020, letter filed with this court
requests that Chief Justice Pickering be removed from this appeal. These
requests are construed as motions for disqualification pursuant to NRAP
35. Under NRAP 35(a), a motion for disqualification must conform to the
form required by NRAP 27. Additionally, a motion shall sja|e_clearly and
concisely each ground relied upon as a basis for disqualification with the
specific facts alleged in support thereof and^THelegalaTgument necessary
to support it. NRAP 35(a)(2)(A). All assertions offact in a motion must be
supported by proper sworn affidavits or by citatkmsjx) the specific page and
line where support appears in the record of the case. NRAP 35(a)(2)(B).
Supreme Court
Of

Nevada

II

(Ol IW7A

t&i.. ■

-

.;

BUI

((A

(5-eis-

Appellants motions do not meet fchese^standards and are, therefore, denied.
Additionally, appellant’s motion to disquali^_Chief Justice Pickeringds
i untimely. NRAP 35(a)(1).
Appellant has also filed several letters requesting the
appointment of.pro bono counsel to represent her in this appeal. As stated
in this court’s July 27, 2020, order, the request for pro bono counsel is denied
at this time. Because these letters do not appear tojrequest additional relief
which this court can grant, this court takes no. action on the letters filed on
July SO, 2020, and August 4, 2020.

This appeal will be decided as

expeditiously as this court’s docket permits.
It is so ORDERED.

Gibbo
J.
Silver

Stiglich

cc:

Heather Matthews
Robison, Sharp, Sullivan & Brust

Supreme Court
of

Nevada
ID! |9*7A

2
;r'i

Things That Are Pertinent to the Case
I would like to acknowledge and thank Western Nevada Community College for letting me
use their voice activated speech systems and computer to complete this Supreme Court
package. Several years ago, I was rear ended in a car accident and I injured my shoulder so I
can't type very long without aggravating my shoulder, nor can I lift over 8 pounds. Their
cooperation and generosity helped me to complete this request for a hearing in front of the
United States Supreme Court.
Due to the sabotage of the California State University I lost three telephones costing me over
$500.00 because they were constantly being interfered with by electronic devices, ringing in the
middle of the night, cutting me off midsentence during a conversation, deleting additional
minutes that I added to the phone, and then the phones just gave out within one week. Two
emails and a Facebook account were deleted by the social media site because there was
Spyware and strange interference on the sites. The CSU sabotaged these things also causing me
great expense and inconvenience.
On Friday September 27, 20211 went to pick up a pair of glasses at Eastern Sierra Eyecare,
Inc. in Carson City. The glasses had a seg or line of vision in progressive glasses that was almost
at the very top of the glasses instead of in the middle or lower part of the glasses. They were
also supposed to be digital, and were not. I had asked the optician why the line was so high, and
she said it was where my pupil hit the glasses, which was a lie. The optician told me to wear the
glasses for two weeks to see if I could adjust to them as I said the distortion was so great and
everything was so blurry. I took the glasses to the Walmart Optical Center on Market Street in
Carson City. The optician, Angela, there told me the seg on the glasses was almost at the top and
I was looking through the reading area which covered almost the entire glasses, and the glasses
were terrible. She said I should get my money back, and she had never seen such terrible
placement of the seg on the glasses. I brought the glasses back as Angela had written a note
stating the problem with the glasses. The optician at Eastern Sierra Eyecare was nasty to me, but
finally gave the money back. I have included Angela's note and the check back to me.
This is out there enough to think is this all connected? This is out there that this is such a
deliberate act, just like the interference on the phones. One would have to pause to ponder this,
what extent will the CSU go to to eliminate all future endeavors to prove to the next individual
that defies them that they will bury you and you will have no existence whatsoever. I am being
made an example for future grievances against the CSU so that nobody else will want to sue
them. Who else would want to be dragged through hell by them?
I'm showing the attitude the CSU has to prevent any future litigation against them. I pray the
United States Supreme Court will resolve this dilemma in my favor so I may pursue life, liberty,
and the pursuit of happiness. After acquiring my masters degree in career counseling suma cum
laude, now I find myself unable to pursue it because of the interference of the CSU. I received
my Masters Degree in Career Counseling to help people reach their fullest potential in life, and
now I can't reach my fullest potential in life because of the interference of the CSU.
They also interfered with every place I have lived causing me to move five times, and all kinds
of things of a criminal nature happened including having my items stolen several times and my
places being broken into multiple times. I also lost a car because there was over $2500.00 worth

2i

of damage done to it from the tires being slashed to the car being broken into, the trunk being
pried open and things stolen out of it, and I had my registration and pink slip stolen.
Eventually I bought an RV and moved down to Carson City NV to get away from all of the
criminal activity perpetuated against me in Reno. Within six months of moving into the RV park
my RV was rammed into, causing me several hundred dollars of damage I had to fix. I bought the
RV at RV country in Sparks NV and they did not tell the person who set up the RV to chock the
wheels which prevents the RV from moving forward. Someone intentionally banged into the
hitch of my RV causing this damage. RV country admitted that they were partly responsible for
this situation and had someone come out to put new stabilizers on the RV and balance it at no
charge. Included are pictures of the damage to the stabilizers caused by the RV being banged
into. The RV has also been broken into five times. I believe that people were paid to do this by
the California State University system, since no RV's have ever been banged into or broken into
in the 14 years since the RV park has been opened.
I had to call the police a few months ago because the neighbor behind me and his ne'er do
well girlfriend were running their car exhaust beneath my window for hours at a time. I also
believe that these people were paid by the California State University to do this because this is
not normal behavior and I literally had to yell at them and force them to stop doing this by
calling the police. I believe the police may have even been bribed because they used the name
Heather Williams on the police report instead of Heather Matthews, and I don't think they used
the other person's correct name either to cover up criminality. Soon after this incident the
offending party moved away never to be heard from again. I believe they were paid by the CSU
to do this by covering up the criminality of it.
There have been too many other incidents of criminality to mention but I wanted to make the
United States Supreme Court aware that California State University was behind them.
I have included a court order that is proposed by the defendant's legal team concerning a
tolling motion. A short time thereafter Judge Wilson just signed the order almost exactly as
CSU's legal team wrote it up. This is what happened with almost everything that California State
University’s legal team wanted Judge Wilson to do.
I have also included a statement from the Supreme Court of Nevada that denies a pro bono
attorney that I requested several times. I also requested a pro bono attorney in the District
Court several times and it was also denied there. Included also is a statement from the Supreme
Court of Nevada that deletes evidence of criminality because they claim they couldn't do
anything about it.
They basically deleted anything that was to my benefit and took it out of my file, and only
processed things that were to the California State Universities benefit. There basically was no
opportunity for an unequivocal decision to be made in my case. The California State University
hired a large law firm, and I had no attorney or legal advice made available to me at all. This
does not proliferate equal justice for all but only for those who can afford to hire a high - end
attorney and this shows bias in my case. When my case was shut down shortly after I reported
wrongdoing, this is just more evidence of injustice and bias in my case. The California State
University did not want this case to go anywhere, and because of paying huge bribes to judges
and justices it didn't. There was no explanation or reason given for not giving me an attorney or
anything else in this case.

Q, &

There are almost always oral arguments in Supreme Court appeals cases, and I was denied
oral arguments in the District Court and the Nevada Supreme Court. The whole purpose of the
court should be to be heard and to be given the opportunity to express yourself and have a
voice in the case. I was given no voice in the case, and was treated like I didn't matter and
everything 1 said or did was just dismissed without having legal representation.
I pray that the United States Supreme Court will give me a voice and a chance to be heard,
and will do the right thing and prosecute California State University for the crimes they have
committed against me. I pray that they will do this not just for me but for the thousands of
other people coming after me who want to publish books, gives speeches, and to pursue life,
liberty, and the happiness that enables them to reach their fullest potential in life.
The reason I received a masters' degree from California State University in counseling with a
specialization in career counseling was to help other people realize their fullest potential in life,
and to help them complete their calling. Now I find myself in the same position, and the United
States ^Supreme Court is the only one that can help me complete this calling. This is a court of
last resort, and this case is also a remedy for thousands of other people who are in similar
situations like I am, both now and in the future.
I have overcome many adversities during my life, and I believe this will be one more chance
to overcome injustices that have been done to many people including myself in the name of
sovereign immunity. The war in Afghanistan has taken over the rights of the people there, and
the Taliban is literally crushing the voice of the people there. The people there have no rights
and are desperate to get out of the country, and are hanging onto planes as they leave
Afghanistan and falling to their death just trying to remain free. Yet we live in a democratic
society and immunity is crushing the voice, freedom and justice of people who've had egregious
criminal activity committed against them, and have no resort for justice. It is time that all people
stand accountable for the consequences of their actions whether intentional or unintentional. It
is particularly unjust in my case where criminal activity has been perpetuated against me by
California State University, and there appears to be no recourse but the United States Supreme
Court to rectify it.
I am looking forward to my trip to Washington D.C. and I hope to make a difference in the
lives of others by standing up for something that should be corrected in our democratic system.
I would also like to meet President Biden and Vice President Harris. As President Biden said
about Afghanistan, the buck stops with him. If Rosa Parks had not stood up and said she
wouldn't sit in the back of the bus anymore, the civil rights movement would never have begun.
It takes someone who has a backbone and will stand up and say that something is not right, and
the buck starts with me. I pray the Justices of the United States Supreme Court will help me and
thousands of others pursue their constitutional rights of life, liberty, and the pursuit of
happiness and their calling in life. It is said that Freedom, Truth, and Equal Justice for All in this
country will never die, and by eliminating any kind of immunity for criminal activities in this
country, they never will.

as

CSe6

fa3* ^0

[J^bank

Eastern Sierra Eyecare
111 West Tenth St
Carson City, NV 89703
(775) 883-4664

PAY TO THE
OF

order

6152

94-169/1212

8/27/2021

Heather Mathews

$*225.00

Two Hundred J wenty-Five and 00/100***************************f*************************************************.******* *,

Heather Mathews
2438 North Carson Street
Carson City, NV 89703

, i

a .m

E3ES
S

MEMO
fgsissssgBe

"■ODE. 15 2"'

CieiECUE.qu:

1 5 3 751. sqg,i,70ii-

^4

o

(Jo
1

o»

^ l

S:

s

3

iH

lUtel
AUTHORIZED SIGNATURE

*
s
s
a
s
8
g
I
DOLLARS I

i

a

f

Ca3 ^

IN THE COURT OF APPEALS OF THE STATE OF NEVADA

HEATHER MATTHEWS, AN
INDIVIDUAL,
Appellant:
vs.
CALIFORNIA STATE UNIVERSITY, A
CALIFORNIA PUBLIC ENTITY,
Respondent.

No. 81120-COA

jr%

K

FEB 1 2 2021
ELIZABETH A. BROWN
CLERK OF SUPREME COURT

RV

SSfl

DEPUTY CLERK

(P

ORDER
Appellant filed letters with this court on December 15, 2020,
December 29, 2020, January 5, 2021, January 12, 2021, and February 5,
2021, requesting the appointment of pro bono counsel to represent her in
this appeal. As stated in the supreme court’s July 27, 2020, and August 24,
2020, orders, the request for pro bono counsel is denied at this time.
Because these letters do not appear to request additional relief which this
court can grant, this court takes no further action on the letters. . This
appeal will be decided as expeditiously as this court’s docket permits.
It is so ORDERED.
\

, C.J.

cc:

)UHT

of

Heather Matthews
Robison, Sharp, Sullivan & Brust

Appeals

of

Nevada
0 1947B

I>

05

'8

/

_

l

i

I

4a.*iT. A -m* T!

1

-—

L

»
J

,)

• i
1

i
i

I
i
i

TfjfjS
tr*‘

1

,«
“'11

,<t

’

'

'

J- ^
r<i

»

»

'' * 7

• . r

*'

.( )

< ‘

;tv,

* * 4

:i

*

r*.

“•-

«

1

.8

t

t

<
1
t

•tv '*
j

■s

• : •'•>! *4

tJ- •%

.t.

j* i}'-*

k i

«s~

1 *r,.

•!'

' fiV

*v

_

** »
', u * *' / ‘A V

* r

-r^ tfiff Jr J i*. *

‘

^

^

k

^' , v • *
**

»

■> J 4

i

4fr*
*
* i*'
•i

■•

i.

"V

r*

T\.

*

•a -. ■

*

,.s

irr

4

I

i

r< ^'

.. j-iiN-

• (-.

r ^

' . >\ /

1

?'*’

’iy^r'

\

JR

*

“Vjai|*

r

h

i

v. ■,

•-•*■ • X •

t

*t *
... |

I

'■

!»*■

•

■

4

J

T

I

i

l

*

#J

I

!

■P

M

a*

«

^*1
’$iwj*,

i •
“

*

*

"V.;i •*
y*

I

’
m*

i* *

'fr

"4t9.‘V' ^ i
11

. £\*t

8-V.
.jX‘ r
f

1

IB

»

j

•

L

u*

“m

»

*,

I

;4-

r

J*

*•

f

\

4

2

;i
•»

?*

;iBi

\
.'14

•i
?•

1

’ —vti

Jr

;

S''

I *1

i

v y,

'. :' L

r ;f ^ i

i

l

i

? « P

— v f •«
• \ ", *

:

*:

»

T .-,! ;• k
rV/"'

•< k
4

«.*

I !*

»

.1
.

*

-*

^ -;J

( ':: 4 ’
l

l

i.
j,• :■ t
•!r j1-*
,.

4

*

t .

i

J

.1/ .*■r

•i- ■■

*

i

V~- t}S ,* ,

XV • --

*

•V uT''^

•„ ■

■T

.r *

r,

-* ■

!.**

■*k

,4;, w

t

^

■— .r .r

i

1 -- ■?;

Ui-

4

'■.■;^'^-'.«v‘

i

t*
»

.

*y A

■#.-

' r- , ‘

»Jk- • > Vv. i ^ f P-

.- i

I

/

!

1

"¥ S*.-

»J

»i V

f

»
#4

i

!!•

l

»

•A

1

•

i

l-v. ^-

i

. i

J

- 4 #:D
/
‘if

4a

•«
4

J

'.8

- H**i»

%

ft

.

i*

I
■>

•i

• rr '
ur

.*. +4

* J

♦ <v
•

ifc

*!

£

7j U:.

.«■*

r

»■

O-

i

’ ^ I

4

*

t .

0 <‘.T» t**

t

*1
V •

•*

rr*

■ Vpv'*;

I

.V

3'1£

»■

■:.,

IM

>

♦-*

•?t.

*

a

r'Kf.-ir*

f

•T

I

i

<

• : i«-

:i

■r?*

*
'

i.,

’"3

11
■t

.•■

•
|4

>r.

I

»

.3

'•j. *

•

• ;i

"V

c:

in

;

\ .

:•
*

.' X'mY V;-'*'

13

;

i
*'

fi

•• '*?< ‘i
1 •<

I

. £f
til

\

8

<

i.

v

(

r; f

u-

1-

—I* *►

?»■. •*•

<
. "I.

i

*

!<,
w

!S. t;

i* ;v'*

:-: ,1-

;'j
‘r-

l ■

■>sj ‘ 'A.

r" ,

V

'I •'*?

i

U .J •

rv

XM:
K

iSli
-•

y;

r?:

: Y-

i.

• i *i.

t-

k

K.

nt

:

>.i-

£k 1

I

Vfl

v

■>

j

*n

:t

r

•3

■•' V « '

/

.'j

i
.5

i

■U, si

E

-Y ■

!

Si. •
i;
■■

l;

-1-

v * i.i-

»ftiil

i

V !

>M1.

t

'!V

i

. »•

ii V >

■—v.. .3
%

i
i

S: f,

•

I'

l» [4

'■*

V

1;* ; •

i

a-'*

’*!

T-x

\ V:

SV.

t

'

i

hrffj

-fi

* - -ki •;

T

!

_ -i—'

h K .

i

r .f

i

i

•

r-f

I

j
i

i

<

?.
!■■-

■ V'

_•* «• ,

=]|:

•M

!:

-

4

&%
335

pr-P9^

% SK

1'
3|)i

V

i

:

t

'i

»

,

M
* :fc»r

i

1MM

»VT*V'Cf/o

M

C1

rf.
ti?
■•.i

-~r

!

*.

.•»•

k'’

t

»*

4,

Si

lllsfflfl®1
**
iStgi

(
/

4

A
4
i

•

'■*vv,S'4

’/

|!
.4V

V

~
,1

.it.

•v

•»

• ^

*■*

‘ JV ~*^,t’|,q»auKr : jr».; v-

■ .‘" .:■•
,’f

';. .

J *

-i

•i.r

:*

;■

,•»

il

•T

-.•It

.1'

■

«««.•*.
*
\

-V

t .,-

r»

.M

; ,?
p;

'*■

'\ .. VA'‘
';C'**-*- **!
!*C
” '».:■ • v. •%.;*r^‘
.1

.';

'«
1

■'%

ri­
f.

,?■

VVfSfSiW
i

t-v

•fi H,f- >
™

. -

r
t’f '*n

4<

I

4’

iu”

:ti -ftq

it*

r^:
■? ^\f.i
‘rlf'1
;r, •
ll %
,i

1U4

*’ . "k

1

_'* -

,'jj U,

;• *
*

*'£\>)

^ Vj

aJ

\

\}J *•}* -

•

i

r*i

1

!

oi

J"

f-s-*"

1

irt

K4

u. •

.\

(!

J** j.iV«/'

?«,'N

—v ...

~J?.

"*» / j*

•-i ,i.

«■

«t

i-

i

mmi

’

*4*. •:

O

£

t:* 'S^iP^s^»i

i?>V

T>™
a

«.;»

I

J

■4

r.v**

*V.

•

l

H

" ’
4

T
^

*1*1

r.;*

.
,v

. %& ?«
• ti

r¥*

• •u

n •

•

'*
41

*

»t,r

v,
.'(V

.»»Y •*

_

*1

> r*
tiv

.

'«

«sl

.

i

la^.iJF.tf•; 4 ;-- \

-r^' IW
M' :!!
-.r

■•;■'.% S?V ,
’ft=

i M- 'ft'.... ..,

t%

1

1

,ii hr"'*i

I

'

.*

•’*U

! i

'j 1

’t.

1

1
■t-";

.’i
?

;-

;*.

:l

•I
l

*1*:
1

a

^

V

«EC'D & FILtb

Case No.: 19TRT00037 1B
2

Z0I9JUL 19

Dept. No.: II

8= 07

AUBREY RGWLATT

etemt

3
■&¥:
4

deputy

5
6

IN THE FIRST JUDICIAL DISTRICT COURT OF THE STATE OF NEVADA

7

IN AND FOR CARSON CITY

8
\
9

HEATHER MATTHEWS, an individual,

10

Plaintiff,

ii

vs.

12
13

CALIFORNIA STATE UNIVERSITY, a
California Public Entity,

14

Defendant.

ORDER DENYING MOTION
TO DISMISS AND DISQUALIFY
JUDGE WILSON

15

16
17
18
19
20
21
22
23
24
25
26
27
28

This matter is before this Court, Department One, on Plaintiffs Motion to Dismiss and
Disqualify Judge Wilson filed on July 11, 2019, seeking to disqualify Judge James E. Wilson, Jr.
from hearing and determining the matter before him. Plaintiff, in her Motion, requests that Judge
Wilson be removed from this case. On July 16, 2019, Judge James E. Wilson, Jr. filed a
Declaration Re Motion to Disqualify and an Order Transferring Motion to Disqualify to Judge
James T. Russell.
I.

ANALYSIS

Under NRS 1.230(1), a judge shall not act in an action or proceeding where the judge
has actual bias or prejudice for or against any of the parties involved in the action. When
implied bias is perceived to exist, a judge must be disqualified in only four situations: a) when a
judge is a party to or interested in the action or proceeding, b) when a judge is related to either
party by consanguinity or affinity within the third degree, c) when a judge has been attorney or
counsel for either of the parties involved in the proceedings, or d) when a judge is related to an
attorney or counselor for either party, also within the third degree of consanguinity or affinity.

-1-

i

F

\

I

Beyond these mandatory circumstances for removal outlined in NRS 1.230, the Nevada
2

Code of Judicial Conduct (NCJC) Rule 2.11 summarizes further considerations for whether a

3

judge shall disqualify himself or herself, including proceedings where the judge’s impartiality

4

might reasonably be questioned. NCJC 2.11 lists a non-exhaustive list of circumstances in

5

which disqualification would be appropriate, all of which include some form of relationship or

6

knowledge by the judge himself, or a relative of the judge. None of which are applicable in

7

these matters.

8

Judges have a duty to sit and not to disqualify themselves without a legitimate reason.
i

9

Ham v. District Court, 93 Nev. 409, 415, 566 P.2d 420, 424 (1997). A judge is presumed not to

10

be biased and the burden is on the party asserting the challenge to establish sufficient factual

11

grounds warranting disqualification. See, Hogan v. Warden, 112 Nev. 553, 916 P.2d 805, cert,

12

denied, 519 U.S. 944, 117 S. Ct. 334, 136 L. Ed. 2d 245 (1996).

13

The standard for assessing judicial bias is “whether a reasonable person, knowing all the

14

facts, would harbor reasonable doubts about [a judge’s] impartiality.” PETA v. Bobby Berosini,

15

Ltd., 111 Nev. 431,438, 894 P.2d 337, 341 (1995). Whether ajudge’s “impartiality can

16

reasonably be questioned under an objective standard, however, is a question of law and this

17

court will exercise its independent judgment of the undisputed facts.” Berosini, at 437.

18

Further, in Rivero v. Rivero, 125 Nev. 410, 439, 216 P.3d 213, 233 (2009), the Nevada

19

Supreme Court upheld the following standards:
1. “[SJubstantial weight [is given] to a judge's decision not to recuse herself and
will not overturn such a decision absent a clear abuse of discretionCiting to
Goldman v. Bryan. 104 Nev. 644, 649, 764 P.2d 1296, 1299 (1988), abrogated on
other grounds by Halverson v. Hardcastle, 123 Nev. 245, 266, 163 P.3d 428, 443
(2007). (Emphasis added).
2. “A judge is presumed to be unbiased, and ‘the burden is on the party asserting the
challenge to establish sufficient factual grounds warranting disqualification.’ ” Id.
at 649, 764 P.2d at 1299.
3. “A judge cannot preside over an action or proceeding if he or she is biased or
prejudiced against one of the parties to the action.” NRS 1.230(1).
4. “To disqualify a judge based on personal bias, the moving party must allege
bias that (stem[s] from an extrajudicial source and result [s] in an opinion on
the merits on some basis other than what the judge learned from his
participation in the case.' " citing to In re Petition to Recall Dunleavy, 104 Nev.
784, 790, 769 P.2d 1271, 1275 (1988) (quotine United States v. Beneke. 449 F.2d
1259, 1260-61 (8th Cir.1971)). (Emphasis added).

20
21
22
23
24
25
26
27
28

t

-2-

20 s

*

I
4

*
I

l
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

5. “ <[W]here the challenge fails to allege legally cognizable grounds supporting a
reasonable inference of bias or prejudice, * a court should summarily dismiss a
motion to disqualify a judge” Id. at 789, 769 P.2d at 1274. (.Emphasis added).

i

i

II. ALLEGATIONS
A review of Plaintiff s motion and the Declaration filed by Judge Wilson does not reflect
any grounds for disqualification under NRS 1.230 or Canon 2.11 (A), of the Nevada Code of
Judicial Conduct (NCJC).
Plaintiff, in her motion, asserted that the Court “had no reasoning legally or otherwise for
not accepting [her] complaint” and concluded that the non-acceptance must be due to the sway ol
financial gain to not accept the complaint. Plaintiff supported her assertion by providing that she
received a denial of her complaint without any adjudication. This Court notes that no decision
has been issued in this matter regarding Plaintiffs Complaint. On July 1,2019, Plaintiff filed a

i

Request for Submission of the Complaint and on July 3, 2019, an Order Denying Request to
Submit was issued by Judge Wilson because an appearance had been made by Defendant with
the timely filing of a Motion to Dismiss. This Court further notes that it is unclear what
Plaintiffs intent was in submitting her Complaint however, as noted in Judge Wilson’s
Declaration, there is no requirement or allowance provided by the rules for a party to submit a
complaint to the judge and if it was a default Plaintiff was seeking she did not comply with the
requirements provided by Rule 55 of the Nevada Rules of Civil Procedure.
Plaintiff further argued that Judge Wilson should be disqualified because of his bias and
inability to be fair and impartial toward Plaintiffs case, citing Rule 2.7 ofjudicial conduct rules,
due to Judge Wilson having served as a deputy sheriff in Carson City, specifically working
patrol, traffic divisions, and as a member of the SWAT team.
In his Declaration Re Motion to Disqualify, Judge Wilson declared that he is not aware of
any ground upon which he is required to or should recuse himself in this matter, he is not aware
of any ground upon which disqualification would be appropriate, he believes he has a duty to
decide the case, he does not know any party, he does not have bias or prejudice in favor of or
against either party, he knows nothing about the case beyond what is contained in the filings,
there has been no outside influence on him regarding the case, he does not believe he has failed

-3- :

31

\
I

♦

i

I

1

to apply or has misapplied any statute or rule in denying Plaintiff s request to submit, and he has

2

had no ex parte communication with the defendants or their attorneys and has not been offered

3

nor accepted any bribe, gifts, or anything from the defendants or their attorneys. Judge Wilson

4

further declared that his law enforcement experience has nothing to do with this case and that he

5

has gained nothing, legally or financially, from his handling of this case.

i

6

III.

CONCLUSION

7

A judge’s decision not to recuse himself voluntarily is given “substantial weight” and

8

will be affirmed absent an abuse of discretion. Kirksey v. State, 112 Nev. 980, 1006, 923 P.2d

9

1102, 1118 (1996). The burden is on the party asserting the challenge to establish sufficient

10

facts warranting disqualification. Id. The Court believes Plaintiff has failed to set forth any

11

grounds for disqualification under NRS 1.230 or Canon 2.11 (A) of the Nevada Code of Judicial

12

Conduct (NCJC); and, as provided for in Rivero, supra at 439, the Motion should be dismissed.

r
I

I

13

Therefore, good cause appearing,

14

IT IS HEREBY ORDERED that the Motion to Dismiss and Disqualify Judge Wilson

I
15
16

from Heather Matthews Court Case filed on July 11, 2019, is DENIED.
Dated this / ^ffiiay of July, 2019.

17
18

JAMES T. RUSSELL

Strict judge

19
20
21
22

•<

23
24
25
26
27
28

.4.5

3*

4 -

The Nevada Supreme Court, Legal Aid Center of Southern Nevada, and the Pro
Bono Committee of the State Bar of Nevada’s Appellate Litigation Section have
established a joint program to provide pro bono attorneys for eligible unrepresented
parties in certain civil appeals and writ petitions.* The Program serves parties with
incomes not exceeding 55% to 75% of the Federal Median Family Income.
The Supreme Court screens eligible civil matters for referral to the Program, making
a preliminary determination as to jurisdiction and the issues involved, and also
factors in the number of appeals currently in the Program, the age of the matter, and
the number of available volunteer lawyers.
If the court concludes that representation by counsel is appropriate, the court may
refer an appeal or petition to Legal Aid Center for an evaluation of the litigant’s
financial eligibility. If the litigant is financially eligible and does not object to
representation, Legal Aid Center works with the State Bar to appoint volunteer
attorneys to accept the representation. Once counsel is appointed, the case will be
processed pursuant to the applicable Nevada Rules of Appellate Procedure for
briefing and oral argument.
The Supreme Court established the joint Appellate Pro Bono Program in the fall of
2013. As of January, 2016, pro bono counsel have been appointed on behalf of 80
clients. Published opinions resulting from cases placed in the Program, include:
Abarra v. State, 131 Nev., Adv. Op. 3, 342 P.3d 994 (2015); Bluestein v. Bluestein,
131 Nev., Adv. Op. 14, 345 P.3d 1044 (2015); Fergason v. Las Vegas Metro. Police
(December 24, 2015); and Hohenstein
P.3d
Dep’t, 131 Nev., Adv. Op. 94,
v. Nev. Empl. Sec. Div., 131 Nev., Adv. Op. 17, 346 P.3d 365 (2015).
An attorney interested in taking an appeal through the Program should contact the
Legal Aid Center of Southern Nevada at probono@lacsn.org. Attorneys may also
view the currently available cases by visiting Legal Aid Center’s Pro Bono Project
website at www.lacsnprobono.org

♦Criminal matters and appeals involving the termination of parental rights are not
included in the program.

33

h

i

5

I

!

CONCLUSION

r

I
1

The petition for a writ of certiorari should be granted.

Respectfully submitted,
I

Date:

&c

?

3LD qV

\

-3 4

